                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                       MEMORANDUM OF INVESTIGATION

 Case Number: A13080078                                                                      Page 1 of 1



         This case was opened on individuals 1 who submitted numerous spam proposals to NSF. The
         subjects do not have a scientific background and many ofthe proposals contained articles copied
         from scientific journals. We talked to the first subject, who submitted the vast majority of the
         proposals2 , and she agreed to not submit anymore proposals ofthis nature. We were unable to
         talk to the second subject, who is the first subject's mother. However, we concluded that the first
         subject was most likely responsible for submitting all of the proposals and additional effort to
         talk to the second subject was not warranted.

         As a result, this case is closed.




NSF OIG Form 4 (11/02)
